/ ’N

i

No.

Tt-tm

I—«

*

-J

i-t J

mt

\U LJ

kt

-■’I

I"*

4-1

Supreme Court, U.S.
FILED

APR 2 0 2021
•N.

OFFICE OF THE CLERK-

SUPREME COURT OF THE UNITED STATES

Yao Pone
Petitioner.
V.
Board of County Commissioners for Calvert County.
Respondent.

On Petition for a Writ of Certiorari to
Maryland Court of Appeals

PETITION FOR A WRIT OF CERTIORARI

Petitioner: Yao Pone,
683 Gunsmoke Trl,
Lusby, MD 20657
Telephone 240-256-0203

received

APR 2 3 20?l

I.

Questions Presented

a. Were the citations issued by the County sufficient notice of violations?

b. Were the Petitioner’s rights violated when the County continued to impose fines
while obstructing access to the zoning Board of Appeals which is the normal route
for issues resolution within the County regulations?
c. Did the Circuit court Judge deny the petitioner due process by accepting and
signing Court Orders written in its totality by the County zoning attorney and
disregarded the suggested mediation route such as the zoning Board of Appeals
where time could be afforded to verify facts versus attorney’s bolstering against a
petitioner without counsel? And by doing so violated the 8th Amendment to the
U.S. Constitution and the 25th article of the Maryland Constitution by imposing
cruel and unusual punishments for a zoning stop work violation?
d. Did the Circuit court and County government deny the petitioner due process by
ordering the petitioner to do work and pay penalties, when the COVID-19
pandemic made it impossible to do so?
e. Did the local government violate the 8th Amendment to the U.S. Constitution and
the 25th article of the Maryland Constitution by imposing excessive and cruel fines
which will force the petitioner to have lien and loose his land for power abuse and
racial bias discriminatory zoning stop work violation?

I

I.

Questions Presented

I

II.

Table of Contents ....

II

III.

Table of Authorities

III

IV.

Petition for Writ of Certiorari

1

V.

Opinions Below

1

VI.

Jurisdiction ....

1

VII.

Constitutional Provisions Involved

2

VIII.

3

Statement of the case

IX.

REASONS FOR GRANTING THE WRIT

4

X.

CONCLUSION

4

XI.

INDEX OF APPENDICES

4

l|

II. Table of Authorities
Cases
Aravanis V. Somerset County, 339 MD. 644
Austin V. United States, 509 U.S. 602(1993)

Statutes
Article 25 of the Maryland Declaration of Rights.

Constitutional Provisions
United Sates Constitution, Amendment VIII
United Sates Constitution, Amendment V

IIV

-

IV.

Petition for Writ of Certiorari

Yao Pone, a resident of Calvert County, Maryland without counsel, respectfully
petitions this court for a writ of certiorari to review the judgement of the Maryland
Court of Appeal PETITION DOCKET NO. 126, SEPTEMBER TERM 2020. (Circuit
Court of Calvert County case # C-04-CV-19-000432)

V.

Opinions Below

The Decisions by Maryland Court of Appeals denying Mr. Pone a petition for a
writ of certiorari to the Circuit Court for Calvert County ruling is not reported and
copies are attached as Appendix A1 and Appendix A2.

VI.

Jurisdiction

Mr. Pone’s petition for writ of certiorari to the Maryland Court of Appeals was denied on
January 29, 2021. Mr. Pone invokes this Court’s jurisdiction under 28 U.S.C. § 1257,
having timely filed this petition for a writ of certiorari within ninety days of the
Maryland Supreme Court’s judgment.

1

VII.

Constitutional Provisions Involved

1. The Eighth Amendment (Amendment VIII) of the United States
Constitution prohibits the federal government from imposing excessive bail,
excessive fines, or cruel and unusual punishments. The Supreme Court has ruled
that the Cruel and Unusual Punishment Clause applies to the states as well as to
the federal government, but the Excessive Bail Clause has not been applied to the
states. On February 20, 2019, the Supreme Court ruled unanimously in Timbs v.
Indiana that the Excessive Fines Clause also applies to the states.
2. The Fifth Amendment (Amendment V) of the United States Constitution
prohibits that private property be taken for public use, without just compensation.

2

VIII.

Statement of the case

The case started when the petitioner asked his friend to start a home improvement
yard work on his property while on Active duty for training at Fort Bragg, NC in
the Month of April 2019. The petitioner upon returned, noticed the zoning stop work
and went ahead and started the process to get the appropriate work permit. The
zoning started created falsehood requirements in order not to issue the permits and
started issuing fines instead. For example when the Petition obtained a waiver from
the soil conservation agency as a requirement to issue a grading permit, they
pressured the agent to verbally retract the waiver.
The petitioner continued the negotiations and requested to take his chance and
meet the zoning board of Appeals for an appropriate and final decision on what the
county could afford him for his request for home improvement. The county zoning
obstructed that route too. The District Judge and Circuit Judge signed statements
written by the County’s Attorney and handed them as orders to the petitioner. (The
Circuit orders written by the County’s Attorney and signed by the Circuit Court
Judge ordered to demolish a $21,000 shed on the property when violations have not
been argued during the hour allocated for hearing are attached as Appendix {^1 and
Appendix $2.)

3

IX.

REASONS FOR GRANTING THE WRIT

To once again demonstrate that the court system is the people court system not the
government court system where law violations by the government representatives
are tolerated and law abiding citizens are cruelly punished by over taxing and
imposing excessive fines.

X.

CONCLUSION

The petitioner asks the Court to review the alleged conduct compared to the fines
imposed and to find them cruel and therefore illegal per the United States
Constitution.

XI.

INDEX OF APPENDICES

APPENDIX Al: Decision by Maryland Court of Appeals denying the petition for a
writ of certiorari reconsideration.
APPENDIX A2: Decisions by Maryland Court of Appeals denying the petition for a
writ of certiorari.
APPENDIX Bl: The Circuit orders written by the County Attorney and signed by
the Circuit Court Judge.
APPENDIX B2: The Circuit orders written by the County Attorney and signed by
the District Court Judge.
APPENDIX C: DOCKET of Maryland court case # C-04-CV-19-000432

Respectfully submitted,

/

4

